Ti

C@OCKLE

* E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-547

UNITED STATES FISH &
WILDLIFE SERVICE, ET AL.,
Petitioners,

Vv.

SIERRA CLUB, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR AMICI CURIAE
AMERICAN FOREST RESOURCE COUNCIL, NATIONAL ASSOCIATION OF HOME
BUILDERS, NFIB SMALL BUSINESS LEGAL CENTER, AND AMERICAN FARM BUREAU.
FEDERATION IN SUPPORT OF RESPONDENT in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 7904 words, excluding

the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Boos Ondiaw-h, Gb le

Affiant 39926

    

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS

A. ‘My Comm. Exp. September 5, 2023

Notary Public
